                     U.S. ENVIRONMENTAL PROTECTION AGENCY
                     AGENCY
                     OFFICE OF INSPECTOR GENERAL




                     Wells Band Council
                     Needs to Improve Its
                     Accounting System to Comply
                     With Federal Regulations
                     Report No. 14-2-0316                   July 14, 2014




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                 David Kim
                                                     Leah Nikaidoh




Abbreviations

CFR            Code of Federal Regulations
Council        Wells Band Council
EPA            U.S. Environmental Protection Agency
FFR            Federal Financial Report
GAP            General Assistance Program
OIG            Office of Inspector General
OMB            Office of Management and Budget


Cover photo: The Wells Band Council Environmental Program Office in Wells, Nevada.
             (EPA OIG photo)



 Hotline                                        Suggestions for Audits or Evaluations
 To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
 through one of the following methods:          contact us through one of the following methods:

 email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
 phone:    1-888-546-8740                       phone:    1-202-566-2391
 fax:      1-202-566-2599                       fax:      1-202-566-2599
 online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

 write:    EPA Inspector General Hotline        write:    EPA Inspector General
           1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
           Mailcode 2431T                                 Mailcode 2410T
           Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                   14-2-0316
                                                                                                            July 14, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Wells Band Council Needs to Improve Its Accounting
The U.S. Environmental              System to Comply With Federal Regulations
Protection Agency (EPA),
Region 9, requested assistance       What We Found
from the Office of Inspector
General (OIG) due to concerns       The Council did not timely submit Federal Financial           The Wells Band
about the financial practices       Reports (FFRs) to support cash draws of $390,000,             Council’s accounting
and internal controls of the                                                                      system did not
                                    which were made by the Council under EPA grant
                                                                                                  comply with federal
Wells Band Council (Council).       00T39801. By not submitting FFRs within the period            regulations, which
The financial practices and         reviewed under this engagement, the Council had not           resulted in $390,000
internal controls involved          claimed any costs; therefore, we could not evaluate travel    of questioned costs
equipment and travel costs,         and equipment costs incurred under their EPA grant.           and proposed high-
and timekeeping methods and                                                                       risk designation for
procedures.                         The Council’s timekeeping methods and procedures were         the grantee.
                                    not in compliance with the Code of Federal Regulations
                                    (CFR), through 2 CFR Part 225, Appendix B. The Council did not maintain
This report addresses
                                    personnel activity reports or equivalent documentation as required by the regulation.
the following EPA goal or
cross-agency strategy:              The Council’s financial management system did not meet the standards established
                                    under 40 CFR § 31.20(b). The regulation requires that a grant recipient’s financial
  Working to make a visible        management system provide accurate, current and complete disclosure of financial
   difference in communities.       results; compare actual expenditures with budgeted amounts; and relate financial
                                    information to performance or productivity data. The Council did not meet these
                                    requirements.

                                    As a result of the issues noted above, we questioned $390,000 drawn under the
                                    grant as unsupported.

                                     Recommendations
                                    We recommend that the Regional Administrator for EPA Region 9 recover $390,000
                                    drawn under the grant, unless the Council can provide adequate documentation to
                                    support eligible costs incurred under the grant. We also recommend that the
                                    Regional Administrator designate the Council a high risk grantee, as was previously
                                    recommended in the Council’s Office of Management and Budget Circular A-133
                                    audits.

                                     Agency and Auditee Response
                                    EPA Region 9 program officials concurred with our findings and recommendations,
For further information,
contact our public affairs office
                                    and said they will work with the Council to resolve the findings.
at (202) 566-2391.
                                    The Council generally agreed that its accounting system may not have met federal
The full report is at:              requirements. The Council submitted the required FFRs to Region 9 in March 2014,
www.epa.gov/oig/reports/2014/       after the completion of our audit testing. The OIG has not reviewed these FFRs for
20140714-14-2-0316.pdf              compliance with federal regulations. The Council expressed concerns about being
                                    designated high risk and how this designation might impact their ability to obtain
                                    future federal grants.
                         UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                        WASHINGTON, D.C. 20460


                                                                                       THE INSPECTOR GENERAL


                                              July 14, 2014

MEMORANDUM

SUBJECT:       Wells Band Council Needs to Improve Its Accounting System to
               Comply With Federal Regulations
               Report No. 14-2-0316

FROM:          Arthur A. Elkins Jr.

TO:            Jared Blumenfeld, Regional Administrator
               Region 9

The attached attestation report represents the results of the Office of Inspector General’s (OIG’s) agreed-
upon procedures engagement. This report is intended solely for your information and use, and should
not be used by those who have not agreed to the procedures or taken responsibility for the sufficiency of
the procedures for their purposes.

This report contains findings that the OIG identified and corrective actions that the OIG recommends.
The report does not necessarily represent the final position of the U.S. Environmental Protection Agency
(EPA). Managers at the EPA will make final determinations on matters in this report.

Action Required

In accordance with EPA Manual 2750, you will need to provide your proposed final determination letter
for our review and concurrence prior to issuing the final determination, since there are monetary
findings in excess of $250,000. The proposed final determination is due to our office within 120 days of
report issuance, or by November 12, 2014. To expedite the resolution process, please email an electronic
version of your proposed management decision to adachi.robert@epa.gov.

Your staff should review the findings, recommendations and recipient’s response, and provide us
documentation regarding the resolution of the findings. If the recipient is unable to provide adequate
documentation to support the $390,000, the EPA should recover these costs accordingly.

Your response will be posted on the OIG’s public website, along with our memorandum commenting
on your response. Your response should be provided as an Adobe PDF file that complies with the
accessibility requirements of Section 508 or the Rehabilitation Act of 1973, as amended. The final
response should not contain data that you do not want to be released to the public. If your response
contains such data, you should identify the data for redaction or removal, along with corresponding
justification.

We will post this report to our website at http://www.epa.gov/oig.
Wells Band Council Needs to Improve Its Accounting System                                                                    14-2-0316
to Comply With Federal Regulations



                                     Table of Contents
   Independent Auditor’s Report on Applying Agreed-Upon Procedures .................                                                1

   Introduction ...............................................................................................................     3

        Purpose .................................................................................................................   3
        Background ...........................................................................................................      3
        Prior Audits ............................................................................................................   3

   Results of Agreed-Upon Procedures Engagement .................................................                                   5

        Travel Costs ..........................................................................................................     5
        Equipment Costs ...................................................................................................         5
        Timekeeping Procedures .......................................................................................              6

   Other Matters – Inadequate Accounting System ....................................................                                7

   Recommendations ....................................................................................................             8

   Agency and Grantee Comments ..............................................................................                       8

   OIG Response ...........................................................................................................         9

   Status of Recommendations and Potential Monetary Benefits .............................                                          10



 Appendix
   A       Distribution .......................................................................................................     11
                 Independent Auditor’s Report on
                Applying Agreed-Upon Procedures
            In response to an August 14, 2013, request from the U.S. Environmental
            Protection Agency (EPA), Region 9, we applied the agreed-upon procedures to
            EPA grant 00T39801 awarded to the Wells Band Council of Wells, Nevada.

            We performed the procedures enumerated below, which were agreed to by the
            Office of Inspector General (OIG) and Region 9 on January 23, 2014. We
            performed these procedures solely to assist the region in determining:

               1. Whether the equipment and travel costs claimed under the EPA grant are
                  reasonable, allocable and allowable in accordance with applicable laws,
                  regulations and grant conditions.

               2. Whether the timekeeping methods and procedures at the Wells Band
                  Council are in compliance with applicable laws, regulations and grant
                  conditions.

            The period under review for this agreed-upon procedure engagement was from
            October 1, 2010, through December 31, 2013.

            By receiving the grant award, the recipient has accepted responsibility for
            complying with the requirements of the Code of Federal Regulations (CFR),
            through 2 CFR Part 225; 40 CFR Part 31; 40 CFR Part 35, Subpart B; and the
            terms and conditions of the grant.

            We performed these agreed-upon procedures in accordance with the Government
            Auditing Standards issued by the Comptroller General of the United States, and
            the attestation standards established by the American Institute of Certified Public
            Accountants. The sufficiency of these procedures is solely the responsibility of
            Region 9. Consequently, we make no representation regarding the sufficiency of
            the procedures described below, either for the purpose for which this report has
            been requested or for any other purpose.

            We conducted our audit work from February 4, 2014, through July 14, 2014. Our
            agreed-upon procedures included:

               1. Reviewing claimed travel and equipment costs and supporting documents
                  to determine whether the costs are reasonable, allocable, and allowable in
                  accordance with the applicable federal laws, regulations and grant
                  conditions.

               2. Quantifying any unreasonable, unsupported or unallowable travel and
                  equipment costs claimed.


14-2-0316                                                                                   1
               3. Performing walk-throughs and interviews to obtain an understanding of
                  the auditee’s policies and procedures for timekeeping and obtaining
                  written procedures.

               4. Reviewing a sample of payroll transactions, to ensure auditee compliance
                  with its timekeeping procedures and federal laws and regulations.

               5. Quantifying unreasonable, unsupported or unallowable personnel costs
                  claimed.

            Results of these procedures are presented in the following sections of this report.

            We were not engaged to and did not perform an examination, the objective of
            which would be the expression of an opinion on management’s assertions.
            Accordingly, we do not express such an opinion. Had we performed additional
            procedures, other matters might have come to our attention that would have been
            reported to you.

            This report is intended solely for the information and use of EPA. It is not
            intended to be, and should not be, used by anyone other than these specified
            parties.




            Robert K. Adachi
            Director of Forensic Audits
            July 14, 2014




14-2-0316                                                                                    2
                                      Introduction

Purpose
            On August 14, 2013, EPA Region 9, Communities and Ecosystems Division,
            requested assistance from the OIG due to concerns about grants awarded to
            certain tribes in Nevada, including the Wells Band Council (Council). After
            meeting with regional staff, it was decided that an agreed-upon procedures
            engagement would be performed to review equipment and travel costs claimed
            under EPA grant 00T39801, and evaluate the Council’s timekeeping procedures.

Background
            The Wells Band Council is the governing body within the Wells Colony located
            in Wells, Nevada. The Wells Colony is one of four separate colonies of the
            Te-Moak Tribe of Western Shoshone Indians.

            EPA grant 00T39801 was awarded to the Council under the agency’s Indian
            Environmental General Assistance Program (GAP) on June 8, 2010. The grant
            period is from October 1, 2010, through September 30, 2014, and the total grant
            award amount is $532,334. The GAP grant provides financial assistance for the
            Council to plan, develop and establish an environmental protection program.
            Activities funded under the grant include community outreach, environmental
            education and workshops, community clean-ups, and coordination with federal
            agencies and other entities on environmental issues.

            Summary of EPA Grant 00T39801:
              Grant number   Total award            Performance period    Amount drawn as of
                               amount                                     December 31, 2013
                 00T39801          $532,334          10/1/10 – 09/30/14        $390,000
            Source: EPA grant file and EPA compass data warehouse.


Prior Audits
            On August 21, 2013, the OIG transmitted the Council’s fiscal year (FY) 2008, 2011
            and 2012 Office of Management and Budget (OMB) Circular A-133 (single audit)
            audit reports to EPA Region 9 for review and audit resolution. As a result of the
            single audit findings, the OIG recommended that the region recover $361,027 in
            unsupported questioned costs. The OIG also recommended that the Council be
            considered high risk, in accordance with 40 CFR Part 31.12, and that appropriate
            grant restrictions be placed on the Council.




14-2-0316                                                                                  3
            Of the $361,027 questioned, $248,642 was for FYs 2011 and 2012, which fall within
            the period covered by EPA grant 00T39801. Resolution of these reports was
            suspended, pending the results of the agreed-upon procedures engagement.




14-2-0316                                                                                 4
                        Results of Agreed-Upon
                        Procedures Engagement
            We could not review travel and equipment costs claimed under grant
            00T39801, because the Wells Band Council had not submitted any Federal
            Financial Report (FFR) at the time of this engagement and had not yet claimed
            any costs under the grant. Timekeeping procedures at the Council were not in
            compliance with applicable regulations. Furthermore, we determined that the
            accounting system in place at the Council also was not in compliance with
            applicable regulations. As a result, we questioned as unsupported $390,000 in
            total cash draws made by the Council under the EPA grant.

Travel Costs
            We could not determine whether travel costs claimed under grant 00T39801 were
            reasonable, allocable and allowable in accordance with applicable federal laws,
            regulations and grant conditions due to following reasons:

               1. At the time of this engagement, the Council had not yet submitted any
                  FFRs. An FFR is an assertion from a grantee claiming how much of the
                  federal grant fund was spent for grant purposes during the period covered
                  by the FFR. Although the Council has drawn federal funds under grant
                  00T39801, the Council had not yet claimed any travel costs by submitting
                  an FFR. Therefore, we could not review claimed travel costs.

               2. The Council also could not identify total travel costs incurred under the
                  EPA grant. The Council’s accounting system was coded to identify costs
                  by only two categories—personnel costs and all other costs. The Council
                  could not readily provide accounting records of all travel costs incurred.

               3. The Council did not provide adequate supporting documentation for the
                  travel costs that it was able to identify. Many of the travel cost transactions
                  were missing programmatic supporting documents showing the travel
                  costs were incurred for grant purposes.

Equipment Costs
            We could not determine whether equipment costs claimed under grant
            00T39801 were reasonable, allocable and allowable in accordance with applicable
            federal laws, regulations and grant conditions due to following reasons:

               1. As discussed previously, at the time of this engagement the Council had
                  not yet submitted any FFRs. Although the Council has drawn federal
                  funds under grant 00T39801, the Council had not yet claimed any



14-2-0316                                                                                    5
                   equipment costs by submitting an FFR. Therefore, we could not review
                   claimed equipment costs.

               2. The Council did not provide adequate procurement documents related to
                  the equipment costs identified in the Council’s general ledger. The
                  Council identified two equipment costs in its general ledger. However, the
                  Council could not provide procurement documents for the two equipment
                  purchases. The Council explained that the purchases were managed by an
                  employee who was no longer with the Council, and that the employee did
                  not make the procurement documents available before leaving.

Timekeeping Procedures
            We determined that timekeeping methods and procedures implemented at the
            Council were not in compliance with 2 CFR Part 225, Appendix B, 8.h(4) and (5)
            regarding personnel activity reports or equivalent documentation. There was no
            personnel activity report or equivalent documentation at the Wells Band Council
            as required by the regulation.

            Title 2 CFR Part 225, Appendix B, 8.h(4) requires a distribution of employees’
            salaries or wages to be supported by personnel activity reports or equivalent
            documentation when employees work on multiple activities or cost objectives.
            Appendix B, 8.h(5) states that such personnel activity reports or equivalent
            documentation must meet the following standards:

               (a) They must reflect an after-the-fact distribution of the actual activity of
                   each employee.

               (b) They must account for the total activity for which each employee is
                   compensated.

               (c) They must be prepared at least monthly and must coincide with one or
                   more pay periods.

               (d) They must be signed by the employee.

            The Council’s Financial Management Policy also states:

               Labor Distribution - All staff members will record their time on weekly time
               sheets. After supervisors approve these time sheets, Accounting will enter the
               labor distribution data into the Band's automated timekeeping module time
               sheets.

            However, the Council did not have such a labor distribution system in place.
            Council employees used timecards to punch in and out for the hours they worked.
            Each employee kept separate timecards for each project or department for which


14-2-0316                                                                                       6
            they worked. The employees prepared separate bi-weekly timesheets for each of
            their timecards. The timesheets were reviewed by supervisors then by the tribal
            Chairwoman. Approved timesheets were then routed to the Council’s finance
            manager. The finance manager recorded the approved labor hours to the
            appropriate program, according to the timesheets.

            However, there was no personnel activity report or its equivalent that gave an
            account of the total distribution of the actual activity of each employee. As such,
            the Council cannot review employees’ distribution of labor hours in order to
            manage the workforce and ensure compliance with applicable regulations, laws
            and policies. Therefore, there was no assurance that the total hours are accounted
            for and claimed properly.

Other Matters – Inadequate Accounting System
            The Council’s accounting system is inadequate and not in compliance with the
            provisions of 40 CFR Part 31.20. The Council’s accounting system did not
            identify costs by categories other than personnel costs. All other types of expenses
            incurred (travel, supplies, equipment, etc.) are recorded simply as an expense
            without further categorization. Lack of cost categorization does not allow the
            Council to compare actual expenditures to budgeted amounts; or to match
            financial records to performance or productivity data, both of which are required
            under 40 CFR Part 31.20(b)(4).

            The lack of financial data that support performance or productivity data prevents
            the tracing of funds to a level of expenditures adequate to establish that such
            funds have not been used in violation of the restrictions and prohibitions of
            applicable statutes as required under 40 CFR Part 31.20(a)(2). Ultimately, the
            accounting system in place at the Council does not allow for accurate, current and
            complete disclosure of financial results as required under 40 CFR Part
            31.20(b)(1).

            As a result of the Council’s inadequate accounting system, the Council had not
            filed any interim FFRs for EPA grant 00T39801 during the period under review.
            An annual submission of an FFR is an administrative grant condition. However,
            the lack of FFRs limited the EPA’s financial oversight of the grant.

            The Council submitted FFRs for the EPA grant in March 2014. Because the
            reports were submitted after initiation of fieldwork and not in time to be
            considered for review under this engagement, we did not review the FFRs
            submitted. However, we do have concerns about the validity of the FFRs
            submitted due to the unaddressed issue of the Council’s inadequate accounting
            system.




14-2-0316                                                                                   7
Recommendations

            We recommend that the Region 9 Regional Administrator:

               1. Require the Council to provide adequate documentation to support the
                  $390,000 in total cash draws made by the Council between October 1,
                  2010, and December 31, 2013. If the Council is unable to provide
                  adequate supporting documentation, the region should recover these costs
                  accordingly. The amount of costs recovered as a result of the resolution of
                  this report should be offset by any questioned costs recovered as part of
                  the resolution of OIG Report No. 13-3-0350, Single Audit Reports for the
                  Wells Band Council, August 21, 2013.

               2. Complete the resolution of OIG Report No. 13-3-0350, in order to resolve
                  $361,027 in questioned unsupported costs (of which $248,642 pertained to
                  EPA grant 00T39801); and implement the recommendation to identify the
                  Council as high risk, in accordance with 40 CFR Part 31.12, and place
                  appropriate grant restrictions and grant conditions on the grantee.

Agency and Grantee Comments
            The OIG presented the findings and recommendations of this engagement and
            received verbal comments from EPA Region 9 program officials on April 24,
            2014, and from the grantee on April 23, 2014.

            Region 9 program officials concurred with the findings and the recommendations
            and said they will work with the Council to resolve the findings.

            A summary of the Council’s comments concerning the findings and
            recommendations follow:

               1. The Council submitted three FFRs for EPA grant 00T39801 in
                  March 2014—one for each fiscal year covered by the grant.

               2. Regarding the travel cost supporting documents, the Council said it has all
                  the programmatic documents and can provide them if necessary.

               3. Regarding the procurement documents related to equipment costs, the
                  Council said it can try to obtain the procurement documents if necessary.

               4. The Council does conduct a monthly budget review. The Council prepares
                  a monthly spreadsheet that shows the total amount of expenses incurred
                  for the month and the accumulated total expense for the fiscal year, along
                  with the budgeted amount for the year. However, the spreadsheet does not
                  provide budget comparisons by cost categories.



14-2-0316                                                                                 8
               5. The Council noted that most key employees, including the Tribal
                  Chairwoman and the finance director, were not employed by the Council
                  during some of the period covered by the single audit reports.

               6. Regarding the finding of inadequate accounting system and the related
                  recommendations, the Council recognized that it may not have been in
                  compliance. The Council emphasized that it is already taking steps to
                  ensure future compliance. However, the Council is also concerned that the
                  high-risk designation might make it particularly difficult for the Council to
                  obtain future federal grants.

OIG Response
            We verified that the Council has submitted FFRs for the EPA grant. However, the
            Council’s submission of FFRs and other comments did not resolve issues with the
            Council’s timekeeping procedures or the accounting system. Furthermore,
            although we did not review the FFRs submitted, we have concerns about the
            validity of the FFRs due to the unaddressed issue of the Council’s accounting
            system. Therefore, our findings and recommendations remain unchanged.




14-2-0316                                                                                  9
                                Status of Recommendations and
                                  Potential Monetary Benefits

                                                                                                                            POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                          BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion   Claimed    Agreed To
    No.      No.                         Subject                            Status1      Action Official          Date      Amount      Amount

     1        8    Require the Council to provide adequate                    U             Region 9                          $390
                   documentation to support the $390,000 in total                     Regional Administrator
                   cash draws made by the Council between
                   October 1, 2010, and December 31, 2013. If the
                   Council is unable to provide adequate supporting
                   documentation, the region should recover these
                   costs accordingly. The amount of costs recovered
                   as a result of the resolution of this report should be
                   offset by any questioned costs recovered as part of
                   the resolution of OIG Report No. 13-3-0350, Single
                   Audit Reports for the Wells Band Council,
                   August 21, 2013.

     2        8    Complete the resolution of OIG Report                      U             Region 9
                   No. 13-3-0350, in order to resolve $361,027 in                     Regional Administrator
                   questioned unsupported costs (of which $248,642
                   pertained to EPA grant 00T39801); and implement
                   the recommendation to identify the Council as high
                   risk, in accordance with 40 CFR Part 31.12, and
                   place appropriate grant restrictions and grant
                   conditions on the grantee.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-2-0316                                                                                                                                   10
                                                                   Appendix A


                                   Distribution
Regional Administrator, Region 9
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
Director, Grants and Interagency Agreements Management Division,
    Office of Administration and Resources Management
Deputy Regional Administrator, Region 9
Director, Communities and Ecosystems Division, Region 9
Project Officer, EPA Grant 00T39801, Region 9
Grants Specialist, EPA Grant 00T39801, Region 9
Audit Follow-Up Coordinator, Region 9
Tribal Chairperson, Wells Band Council




14-2-0316                                                                 11
